OFFICE OF INSPECTOR GENERAL

               Audit Report


Audit of Internal Control Over Accounts Payable

               Report No. 09-03
                March 31, 2009




 RAILROAD RETIREMENT BOARD
                                           INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
internal controls for the recording and payment of non-benefit, non-payroll
administrative expenses at the Railroad Retirement Board (RRB).

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid approximately $10.2 billion in
retirement/survivor and unemployment/sickness benefits to 628,000 beneficiaries during
fiscal year (FY) 2008. The RRB is headquartered in Chicago, Illinois and has 53 field
offices nationwide.

The RRB prepares annual financial statements in accordance with generally accepted
accounting principles for Federal entities prescribed by the Office of Management and
Budget (OMB) and the Federal Accounting Standards Advisory Board (FASAB).

Internal control is an integral component of an organization’s management that provides
reasonable assurance concerning the effectiveness and efficiency of operations,
reliability of financial reporting and compliance with applicable laws and regulations.
Pursuant to the provisions of the Federal Managers’ Financial Integrity Act of 1982, the
Government Accountability Office (GAO) has issued “Standards for Internal Control in
the Federal Government.” 1 These standards provide the overall framework for
establishing and maintaining internal control and for identifying and addressing major
performance and management challenges.

The Bureau of Fiscal Operations (BFO) is responsible for processing payments to the
vendors and suppliers that provided goods and services to the RRB. During FY 2007,
BFO processed 19,611 transactions totaling $16.5 million for non-payroll and non-
benefit administrative expenses. Because of its monetary nature, the accounts payable
function directly impacts financial statement reporting and is susceptible to fraud, waste
and abuse.

The Federal Financial System (FFS) is the mainframe application that supports the
agency’s financial management operations including purchasing, accounts payable and
financial statement reporting. FFS includes features that support transaction recording
and monitoring. The FFS purchasing subsystem controls the activities in the
procurement process, including requesting goods and services (commitments), ordering
goods and services (obligations), recording the receipt of goods and services
1
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99).


                                                    1
(receivers) and recording the receipt of vendor invoices (invoices). Within the RRB,
BFO is the organizational owner of FFS and the FFS administrator is an employee of
that bureau.

The RRB pays benefits by reason of disability to certain qualifying individuals under the
disability provisions of the RRA. The Disability, Sickness and Unemployment Benefits
Division (DSUBD), within the Office of Programs, relies on medical examinations and
consultative opinions provided by independent medical experts to support its decision-
making process. The FFS Application for Medical Exams (FAME) is a personal
computer application that supports the ordering, acceptance and payment approval
process for these services. FAME interfaces directly with FFS to electronically record
the obligations, accounts payable and related vendor payments.

This audit supports the OIG’s annual audit of the RRB’s financial statements. The
RRB’s strategic plan prescribes effectiveness, efficiency and security of operations as
objectives within the agency’s larger goal of serving as responsible stewards of the trust
funds and financial resources under agency control. This audit supports those
objectives.

Audit Objective

The audit objective was to determine whether internal control was adequate to ensure
that accounting for non-benefit, non-payroll, administrative expenses was complete,
accurate and timely.

Scope

The scope of our audit was limited to payment vouchers and direct disbursements
recorded during the first quarter of FY 2008. The scope of our work specifically
excluded employee payroll, employee travel and payments to program beneficiaries.

Methodology

To accomplish our objective, we:

   •    identified the laws, regulations and procedures applicable to accounts payable;
   •    identified and tested selected internal controls over RRB’s administration of
        accounts payable;
   •    interviewed responsible officials;
   •    conducted walkthroughs and assessed the effectiveness of the accounts payable
        and disability payment processes;
   •    identified and reviewed management’s control activities;
   •    statistically sampled payments processed and recorded in order to test the
        applicable internal controls (See Appendix I);


                                             2
   •   tested selected aspects of agency compliance with requirements applicable to
       certain subgroups such as high-value accounts payable transactions greater than
       $100,000 (See Appendix II);
   •   reviewed documentation related to payment transactions;
   •   reviewed monitoring activities related to the quality and timeliness of payments;
   •   studied the configuration of FFS security settings and user profiles;
   •   tested the implementation of FFS security settings and user profiles;
   •   identified and tested selected controls over high-dollar payments;
   •   tested compliance with agency policies and procedures and applicable laws and
       regulations; and
   •   assessed the adequacy of the agency’s existing policies and procedures related
       to accounts payable transactions.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
November 2007 to February 2009.




                                           3
                                    RESULTS OF AUDIT

Our audit disclosed that internal controls over payments were not adequate to ensure
that accounting for non-benefit, non-payroll administrative expenses was complete,
accurate and timely because the controls were either not sufficient or not operating as
designed.

Our audit found that controls could be strengthened in the following areas:

      •   Segregation of Duties
      •   Payment Authorization
      •   Medical Vendor Payment Functions
      •   FAME System Audit Trail
      •   Supporting Documentation for Payments
      •   Management Control and Related Reviews
      •   Employee Social Security Number (SSN) Exposure
      •   Policies and Procedures
      •   Electronic Receivers

In addition, we identified opportunities for improvement in the following areas:

      •   Timeliness of Payments
      •   Prompt Payment Quality Assurance Reviews

The details of our findings and recommendations for corrective action follow. The full
text of managements’ response is included in this report as Appendices III, IV, and V.

Segregation of Duties for Certain Purchasing Activities Could Be Improved

Although FFS security includes features that provide for segregation of duties,
management’s implementation undermines their effectiveness.

Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud. This should include separating the responsibilities
for authorizing transactions, processing and recording them, reviewing the transactions
and handling any related assets. No one individual should control all key aspects of a
transaction or event. 2

The ability to enter and approve transactions is controlled through the FFS security
profiles of the various users. The privileges of each authorized user of FFS are
controlled by security profiles established within FFS by the system administrator. FFS
provides for transaction-level security that requires various levels of approval, including
multiple levels of approval for certain high-dollar transactions. In addition, the standard

2
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 14.


                                                    4
user profiles are configured to separate critical activities. For example, the system
administrator has established standard access profiles that prevent most users who can
requisition goods and services from entering a purchase order.

In addition, FFS may be configured to require multiple levels of approval to fully process
a requisition depending on the dollar value of the transaction. Standard access profiles
are configured to prohibit approval of a transaction by the same person who initially
entered it and to require that each successive level of approval be applied by a different
authorized user. However, the FFS administrator sometimes grants privileges that are
not consistent with these standard settings.

During our audit, we identified one individual who had been granted privileges under
three security profiles permitting them to enter and approve requisitions and obligate
budgetary resources, in any amount, without the approval of anyone else.

Purchase orders over $10,000 require two levels of approval. Our review of FFS user
profiles disclosed two individuals who had been granted privileges permitting them to
enter a purchase order and apply both levels of approval. The system is similarly
configured for payment vouchers, requiring a second approval for payments over
$100,000. Our review identified one user who had been granted privileges permitting
them to enter a payment voucher and apply both levels of approval. As a result, these
users are able to process transactions to completion without involving any other
employee, which is inconsistent with proper segregation of duties. In addition,
permitting one person to apply both levels of approval defeats the purpose of requiring a
second approval for large transactions.

When a single individual controls both the entry and approval of a single transaction, too
much control over key aspects of the acquisition process is vested in a single individual.

Although FFS provides for adequate segregation of duties and additional scrutiny of
high-dollar transactions, management has awarded system privileges in a manner that
circumvents these controls. As a result, management has not ensured that their control
objectives will be achieved.

Recommendations

We recommend that BFO:

   1. identify all individuals who have been awarded FFS privileges that are
      incompatible with proper segregation of duties; and
   2. work with agency management to eliminate FFS user privileges that violate the
      principles of segregation of duties.




                                            5
Management’s Response

With regards to recommendations 1 and 2, BFO responded that each year they perform
an FFS security audit requesting agency management to review the security profile
information for FFS users in their organization and provide BFO with any changes,
additions, and deletions. BFO notes that the responses and documentation of actions
taken are then provided to the RRB’s Chief Security Officer. For the 2009 security
audit, BFO has agreed to ask agency management to identify individuals who have
been awarded FFS privileges that are incompatible with proper segregation of duties
and eliminate such user privileges. BFO notes that additional FFS privileges may have
been awarded to users in a given organization due to the small size of that organization
and that the organization may have compensating controls.

Office of Inspector General’s Comments on Management’s Response

With respect to BFO’s proposed implementation plan, we are concerned that it will not
achieve the intent of the recommendation because the determination of proper
segregation of duties is distributed throughout the agency rather than residing with the
system owner.


Payment Authorization Is Not Adequately Controlled

Controls are not adequate to ensure that only designated or authorized individuals
certify invoices for payment.

Transactions and other significant events should be authorized and executed only by
persons acting within the scope of their authority. 3 RRB Administrative Circular OA-14
dated June 13, 2007 and updated on January 24, 2008 (which outlines the manual
procedure for the receipt and acceptance of goods and services and the resulting
certification for payment) requires that invoices first be date stamped and forwarded to
the designated person in the receiving bureau/office for certification. The employee
shall certify the invoice as proper for payment by including the dollar amount for
payment, the Purchase Order/Contracts (PC) or Service Order (SO) number, their
signature and the date accepted.

During our audit, we observed that:

      •   the accounts payable unit does not authenticate the certifier’s signature;
      •   the accounts payable unit does not confirm that the certifier is the designated or
          authorized individual for the receiving bureau or office before processing the
          payment; and
      •   the payment voucher approval threshold was set at $100,000 even though the
          average value of the 4,769 payments in the audit universe was only $1,198.
3
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 14.


                                                    6
We also identified one payment in our non-statistical sample of high-value payment
transactions, valued at $1,025,180 that was processed by an accounts payable clerk
who neither authenticated the certifier’s signature nor verified that the certifier was
authorized to certify the transaction.

Moreover, we noted that the various segments of the purchasing/payment life cycle,
such as requisitions, purchase orders and payment vouchers, required multiple
approvals based on certain dollar thresholds. However the manual certification process
involved only one certifier and no additional approvals, regardless of the amount of the
invoice.

The lack of:
   •   a list of individuals who are authorized to certify invoices;
   •   signature cards to authenticate their signatures;
   •   meaningful dollar thresholds for approvals; and
   •   multiple approvals for higher dollar invoices
increases the risk of erroneous, fraudulent, or unauthorized payments.

Recommendations

We recommend that BFO:

   3. develop and maintain a list of designated certifiers, obtain signature cards for
      these individuals and require that higher dollar hard copy invoices be subject to
      multiple approvals before they are processed for payment; and
   4. establish more reasonable dollar thresholds for payment approvals to mirror the
      thresholds used in other steps of the procurement life cycle.

Management’s Response

The Bureau of Fiscal Operations has agreed to work with agency management to
implement recommendation 3. They note that a revision to Administrative Circular
OA-14 may be required.

In response to recommendation 4, the Bureau of Fiscal Operations plans to review the
dollar thresholds for payment approvals and make adjustments as necessary.




                                              7
Disability Medical Vendor Payment Functions Are Not Properly Controlled

The FAME 4 system, which is used to control the purchase and payment of medical
examinations and consultative opinions in support of the RRB’s disability program, does
not provide for adequate segregation of duties.

Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud. This should include separating the responsibilities
for authorizing transactions, processing and recording them, reviewing the transactions
and handling any related assets. No one individual should control all key aspects of a
transaction or event. When duties cannot be separated, compensating controls should
be in place.

During our audit we observed that a single disability claims examiner may order and
approve payment for medical examinations and consultative opinions, thus controlling
all key aspects of the transaction. In addition, no second level of approval is required.
We also observed that individuals other than claims examiners may place orders and
that applicable policies and procedures do not articulate responsibility for placing such
orders.

Segregation of duties was not built into the system when it was designed and the
management control review process did not disclose this deficiency. In addition, the
Disability Claims Manual and FAME system procedures do not:

             •   clearly identify and define the roles and responsibilities of the staff in the
                 process;
             •   define levels of system access; or
             •   address segregation of duties for the order, receipt, acceptance and
                 payment of medical examinations and consultative opinions.

As a result, there is an increased likelihood that the RRB may pay for unnecessary
services.

Recommendations

We recommend that the Office of Programs:

      5. segregate duties to prevent the same employee from ordering and accepting
         medical examinations and consultative opinions, implement second level
         approvals on orders and acceptances of medical examinations and consultative
         opinions, or develop an effective compensating control to ensure the agency
         does not pay for unnecessary services; and



4
    FFS Application for Medical Exams (FAME)


                                                 8
    6. revise policies and procedures to fully articulate which job descriptions have
       authority for ordering medical examinations and consultative opinions so that the
       policies and procedures correspond with actual practice and FAME system
       utilization.

Management’s Response

The Office of Programs responded that the procedure to have a single examiner both
order exams and approve them for payment is an intended practice as they believe that
the examiner is best qualified to determine if the product received meets the requestor’s
expectations. However, they have advised us that to preclude ordering unnecessary
services, they have a control in place to review medical examination requests that
exceed five examination requests for a single disability case. The Office of Programs
has agreed to develop a plan for an additional compensating control.

The Office of Programs has also agreed to revise procedures to include job
descriptions, such as field office and headquarters clerks, that have the authority to
enter examination requests. They have advised us that only claim examiners are
authorized to process payments for examinations and there is no change in that
authority.


FAME System Audit Trail Is Not Fully Reliable

The FAME system does not maintain a reliable audit trail for all transactions. An audit
trail is a detailed record of transaction processing which should include the identities of
those initiating and approving each transaction.

The National Institute of Standards and Technology (NIST) has published standards
that require Federal agencies to:

    •   create, protect and retain information system audit records to the extent needed
        to enable the monitoring, analysis, investigation and reporting of unlawful,
        unauthorized, or inappropriate information system activity; and
    •   ensure that the actions of individual information system users can be uniquely
        traced to those users so they can be held accountable for their actions. 5

During our audit, we observed that when a consultative medical opinion is ordered via
the FAME system, the “Entry Clerk” field is not system-generated; the clerk manually
enters their user identifier. This occurs because the FAME system is not programmed
to automatically pre-fill the “Entry Clerk” field with the active user identifier and secure
the field against changes.


5
 NIST Federal Information Processing Standards Publication 200 “Minimum Security Requirements for
Federal Information and Information Systems,” (03-09-06) page 2.


                                                 9
As a result, management cannot know with any certainty who actually ordered opinions
and accountability for transaction processing is compromised.

Recommendation

We recommend that the Office of Programs:

    7. review FAME system programming and request revisions to ensure that the
       active user identifier is automatically captured for each transaction and secured
       against change.

Management’s Response

The Office of Programs has agreed to review the FAME system to determine when
revisions can be made. They note, however, that other priorities make it difficult to
project when system revisions could be completed.


Payment Documentation Needs Improvement

Proper order authorization forms, evidence of receipt and acceptance and payment
approvals supporting medical examinations and consultative opinions are not always
maintained in the claim folders. In addition, the manual certification of some invoices for
non-medical goods and services was incomplete or lacked adequate documentation to
support the amount paid.

Federal standards for internal control require that all transactions and other significant
events be clearly documented and readily available for examination. 6 More specifically,
transactions and significant events need an audit trail. “An audit trail is the evidence
that demonstrates how a specific transaction was initiated, processed, recorded and
summarized.” 7

During our audit, we observed that:

    •   two of the five high-value payments that were non-statistically sampled and
        reviewed lacked complete documentation to support the amount paid;
    •   eight of the twenty-eight non-medical payments statistically sampled and
        reviewed lacked proper approval for payment; and
    •   four of the seventy-seven medical case files statistically sampled and reviewed
        did not contain the appropriate supporting documentation for vendor payments.



6
  “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 15.
7
  GAO/The President’s Council on Integrity and Efficiency (PCIE) “Financial Audit Manual,” Section 260,
“Identify Risk Factors,” GAO-08-585G, Volume 1, July 2008, page 260-9.


                                                  10
The Office of Programs’ procedures note that FAME order and payment confirmation
screens will automatically print for file documentation purposes and specifies that
documentation supporting these transactions be maintained within claim folders.

Due to human error, the procedure to put the documentation in the folder is not always
followed.

Lack of adequate documentation represents non-compliance with the RRB's policies
and procedures, weakens the operational audit trail and limits the effectiveness of
management oversight. If accounts payable documentation is inadequate, transactions
may be incorrectly perceived as incomplete, unpaid, duplicated, lacking approval, or
improperly recorded.

Recommendations

We recommend that the Office of Programs:

   8. re-communicate to the appropriate staff that all order authorization forms,
      evidence of receipt and acceptance and payment approvals supporting medical
      examinations and consultative opinions need to be maintained in the files.
We recommend that BFO:
   9. ensure that manually certified invoices and other payments include adequate
      back-up documentation to support the amount paid; and
   10. re-communicate to all certifiers that, to be complete, the manual certification must
       include a signature, the date of acceptance, reference to the applicable purchase
       order or service order and the amount approved for payment.

Management’s Response

The Office of Programs concurs with this recommendation and has agreed to include a
reminder to disability examiners to place all evidence in the claim folders on the agenda
for their next monthly training.

BFO plans to discuss with the OIG staff and then work to ensure that manually certified
invoices and other payments have adequate documentation to support the amount paid.

BFO plans to re-communicate the requirements for manual certifications, which are in
Administrative Circular OA-14, to certifiers of invoices.


Management Control and Related Reviews Need to be Updated

A complete management control review and related risk assessment had not been
completed for the accounts payable unit in at least ten years.



                                           11
A comprehensive system of internal control includes a risk assessment process,
implementation of appropriate control activities and monitoring to assess the quality of
performance over time. The RRB has established a Management Control Review
Committee (MCRC) to oversee the agency’s internal control assessment process and
provide guidance to managers in performing the individual evaluations that support the
assessment of the adequacy of internal control agency wide.

Issues related to outdated management control reviews were previously reported in an
OIG report dated April 30, 2007. 8 In response to this report, the MCRC established
updated policies and procedures in December 2007. 9 These updated policies required
that each assessable unit be reviewed once every five years, or more frequently based
on risk, and that the MCRC maintain the schedule of when each assessable unit is due
for review. 10 During the management control reviews, the control objectives are to be
identified or developed for each assessable unit and are to be logical, applicable and
reasonably complete, taking into consideration the financial assertions of existence and
occurrence, completeness, rights and obligations, valuation or allocation and
presentation and disclosure. 11 Lastly, the new policies allowed for extensions of due
dates for the management control reviews as long as the request for extension was in
writing, included a reason for the delay and was approved by and submitted through an
Executive Committee member.

During our audit we observed that:

    •   the last complete management control review and the related risk assessment for
        accounts payable was completed in April 1998;
    •   although BFO had completed a risk assessment only for the Accounts Payable
        Assessable Unit in May 2007, this risk assessment was incomplete in that it did
        not include supporting documentation for the workload data reported;
    •   the data used for this 2007 risk assessment was from FY 2006, which was the
        most current at the time. However, current drafts of an in-process risk
        assessment, to be used as part of the next management control review, still
        contain FY 2006 data and have not been updated; and
    •   the RRB’s MCRC approved an extension to FY 2009 for the Accounts Payable
        Assessable Unit’s management control review, which delayed the next review
        even further. As of February 2009, the management control review for the
        Accounts Payable Assessable Unit is scheduled for completion on June 3, 2009.

The delays occurred because BFO management prioritized other work ahead of the
management control review for the Accounts Payable Assessable Unit.


8
  “Assessment of the Federal Managers’ Financial Integrity Act Process at the Railroad Retirement
Board,” OIG Report No. 07-05, April 30, 2007, pages 7 through 9.
9
  “Management Control Guide,” BFO, December 2007.
10
   “Management Control Guide,” BFO, December 2007, page 4-1.
11
   “Management Control Guide,” BFO, December 2007, page 3-7.


                                                  12
Infrequent management control reviews increase the risk that the control objectives and
techniques insufficiently address the current work environment, policies and
procedures. If poorly designed or ineffective controls are not detected, financial
misstatements or fraudulent transactions may occur.

Recommendation

We recommend that BFO:

     11. complete a management control review and a related risk assessment for the
         Accounts Payable Assessable Unit, using current data, according to the MCRC’s
         current policy, without further delay.

Management’s Response

BFO plans to complete a management control review and related risk assessment for
the Accounts Payable Assessable Unit by the end of the current fiscal year.


Opportunity to Reduce Exposure of Employee SSNs

The RRB could reduce exposure of employee social security numbers (SSNs) by
revising a form commonly used to authorize reimbursement of employee medical
expenses.

OMB has directed agencies to eliminate the unnecessary use of SSNs. 12 The Office of
Personnel Management (OPM) has recommended that agencies minimize the use of
Federal employee SSNs as an identifier and strengthen protective measures when
personally identifiable information (PII) is used. 13 To implement these directives, the
RRB has published an administrative directive requiring periodic privacy-related
reviews, including an annual review of agency progress in reducing the unnecessary
use of SSNs. 14

During our audit we observed that the RRB collects employee SSNs on Form G-753
“Application for Reimbursement of Medical and/or Eye Examination Fees” which is used
to request reimbursement of expenses under the RRB’s Physical and Eye Examination
Program. Form G-753 is submitted to the Employee Health Service for verification of
eligibility and then forwarded to BFO for payment. Our review of the form indicates that
the SSN is not necessary for processing.

Although BFO uses SSNs to identify employees in FFS, the mainframe computer
12
   “Safeguarding Against and Responding to the Breach of Personally Identifiable Information,” OMB
M-07-16, May 22, 2007.
13
   “Guidance on Protecting Federal Employee Social Security Numbers and Combating Identity Theft,”
OPM, June 18, 2007.
14
   “Management of Information Privacy for Individuals,” RRB Administrative Circular IRM-2, September 3,
2008.


                                                  13
financial management system, it is not necessary to display the SSN on the form itself.
Continued collection of SSNs on Form G-753 creates an unnecessary risk of identity
theft and a related need to provide secure storage and limit access which would not
exist if the form did not include an SSN.

Prior OIG recommendations to strengthen physical security over PII, including SSNs are
pending. 15 Further evaluation of physical security is outside the scope of this review.

Recommendations

We recommend that:

     12. the Office of Administration implement a revised Form G-753 that does not
         require the employees’ SSNs; and
     13. BFO implement procedures that will permit them to process Form G-753 without
         employee SSNs for payment.

Management’s Response

The Office of Administration concurs with the recommendation and is taking steps to
revise Form G-753 so that it no longer requires employees’ SSNs.

BFO responded that they are able to process Form G-753 without employee SSNs.


Policies and Procedures Need Improvement

Policies and procedures for accounts payable and related matters need improvement to
ensure continuity of operations in accordance with management’s directives.

Control activities help ensure that management’s directives are carried out. 16 Internal
controls and all transactions and other significant events need to be clearly documented
and the documentation should be readily available for examination. 17 These controls
include policies and procedures to carry out organizational objectives, such as planning,
productivity, programmatic, quality, economy, efficiency and effectiveness objectives.
Management uses these controls to provide reasonable assurance that the entity (1)
achieves its mission, (2) maintains quality standards, and (3) does what management
directs it to do. 18



15
   “Audit of Controls to Safeguard Sensitive Personally Identifiable Information,” OIG Report No. 07-09,
September 27, 2007, Recommendation 1, page 9.
16
   “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 11.
17
   “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 15.
18
   GAO/PCIE “Financial Audit Manual,” Section 260, “Identify Risk Factors,” GAO-08-585G, Volume 1,
July 2008, page 260-3.


                                                    14
Comprehensive policies and procedures for accounts payable should describe the
various activities required to process payments from receipt through the issuance of
final payment. Such documentation would reference FFS documentation,
administrative circulars and other authorities as necessary to provide a complete,
understandable basis for action.

During our audit we observed that the documented policies and procedures do not
include all of the activities presently performed by BFO staff. In addition, we noted that
BFO staff does not perform certain control activities which should be a routine part of
accounting for payables. For example:

          •   Procedures currently in use for processing the payment of government
              purchase card bills have not been formalized.
          •   Two employees had independently prepared different written instructions
              describing procedures that they followed in performing the same work.
          •   Procedures currently in use for processing the payment of centrally billed
              travel cards have not been formalized.
          •   Existing procedures do not include a periodic search for unrecorded
              liabilities related to unpaid administrative expense or a process for
              estimating such liabilities.

Additionally, during our review, it came to our attention that other policies and
procedures administered by the Office of Administration also needed improvement. For
example:

          •   The Administrative Circular OA-14 was recently updated, but it does not
              contain information on expedited payments or procedures for early
              payment.
          •   Basic Board Order 5, in its coverage of severable contracts, does not
              include any references to the appropriations laws, regulations and
              circulars such as 41 U.S.C. § 253 and GAO’s Principles of Federal
              Appropriations Law (the “Red Book”).

In general, responsible managers did not recognize the need for more detailed policies
and procedures. The BFO accounting guide which describes policies and procedures
for other accounting responsibilities does not include accounts payable activities.
Although management has distributed some written work instructions, when asked
about current practice, they frequently refer to the FFS documentation. FFS
documentation is not a substitute for formalized, written and comprehensive policies
and procedures.

As a result, management has not ensured that transactions will be executed in
accordance with management’s directives. For example, during our audit, we found two
instances where payments were not properly approved because certifiers did not sign


                                            15
and/or date the invoices when they approved them for payment. We noted that some
certifiers used a stamp that had a space for a signature, but no space for a date; while
other certifiers used no stamp at all and did not even sign the invoice. We also found
one instance where the monitoring of Treasury’s payment was not documented with an
annotation on the invoice. When policies, procedures and practices are not
documented, are unavailable, outdated, or inconsistent, accounting controls may be
bypassed and control weaknesses may go undetected. In addition, lack of
documentation undermines an organization’s ability to ensure continuity of operations in
the event of staff changes.

Recommendations

We recommend that BFO:

   14. review, update and finalize policies and procedures for accounts payable
       activities.

We recommend that the Office of Administration:

   15. review and update the identified policies and procedures related to the
       procurement process.

Management’s Response

BFO plans to review, update, and finalize policies and procedures for accounts payable
activities.

The Office of Administration has agreed to update Administrative Circular OA-14 to
contain information on expedited payments or procedures for early payment. They will
also work with legal counsel to update Basic Board Order 5 to include references to
appropriate laws or regulations in the coverage of severable contracts.


Electronic Receivers

The manual process currently used to record the receipt and acceptance of goods and
services is often inconsistent and incomplete. Increased use of electronic receivers
would improve accounts payable processing.

The FFS was designed to comply with Federal accounting standards and requirements
for Federal financial management systems. The electronic receiver is an FFS feature
that may be used to record the receipt and acceptance of goods and services and
facilitates the following:

   •   provides an easily traceable audit trail;




                                             16
     •   confirms the identity of the individual who is recording the receipt and acceptance
         of the goods and services (certifier);
     •   authenticates the certifier’s signature;
     •   automatically records the date of acceptance for goods and services in the
         system;
     •   automatically creates an accrued liability; 19
     •   ensures the completeness of liabilities for financial reporting; and
     •   saves time and effort for all employees in the purchasing life cycle by eliminating
         steps usually required in the manual certification process.

The agency does not currently require utilization of electronic receivers. Instead, a
manual procedure is often used. RRB Administrative Circular OA-14 (which outlines the
manual procedure for the receipt and acceptance of goods and services and the
resulting certification for payment) requires that invoices first be date stamped and
forwarded to the designated person in the receiving bureau/office for certification. It
further states that the employee shall certify the invoice as proper for payment by
including the dollar amount for payment, the PC or SO number, their signature and the
date accepted. 20

During our audit, we observed the following:

     •   The date of acceptance for three accounts payable transactions (ranging from
         $160,000 to $1,025,180) was not clear. This occurred because the transactions
         were processed without electronic receivers and the date of acceptance was not
         documented on the invoice during the manual certification process.

We also observed the following:
     •   An additional 1,102 non-medical payments totaling $2,485,141 were also made
         without a receiver. The considerable volume of transactions represented a
         missed opportunity to save extensive time and effort by the employees in the
         purchasing life cycle if electronic receivers had been used.
     •   The year-end request for managers to identify any accruals not already on the
         agency’s books did not consider accounts payable transactions. Had electronic
         receivers been used, the need to search for unrecorded accounts payable-
         related liabilities at year-end could have been minimized as any applicable
         accruals would have been automatically recorded.


19
   Accruals are used to record liabilities created when goods or services are received but before payment
is authorized. Accruals are used to make final accounting reports more accurate by ensuring the
completeness of reporting for liabilities.
20
  “Procurement of Goods and Services,” RRB Administrative Circular OA-14, January 24, 2008, pages
14 and 16.


                                                   17
The manual invoice certification process used in lieu of the electronic receiver falls short
in that it:

   •   does not always provide for an easily traceable audit trail;
   •   does not provide for the identification of approved certifiers;
   •   does not authenticate certifiers’ signatures;
   •   does not always record the actual date of acceptance;
   •   creates potentially missed accruals which can result in inaccurate financial
       statements; and
   •   creates unnecessary work for employees in the purchasing life cycle.

Agency procedures do not stress the importance of the electronic receiver as a control
in the purchasing and financial reporting process. The use of an electronic receiver can
ensure that payments are not made when goods or services have not been received, or
when they are inadequate or defective. It also acts as a deterrent against fraudulent
transactions. When receivers are not entered on FFS, the related expense may not be
recorded in the proper accounting period, potentially understating both the
administrative expense and liabilities on the agency’s income statement and balance
sheet, respectively.

The use of electronic receivers would strengthen all of the above controls and help to
ensure the completeness and accuracy of the liabilities reported in the agency’s
financial statements.

Recommendation

We recommend that BFO:

   16. work with the Executive Committee to maximize the use of electronic receivers
       for accounts payable transactions and promote the importance of the electronic
       receiver as an additional control in the purchasing and financial reporting
       process; or improve the manual certification process to include all of the controls
       that are provided by the electronic receiver.

Management’s Response

BFO has discussed this recommendation with the Director of Administration and they
note that he plans to promote the use of electronic receivers to the Executive
Committee.




                                             18
Opportunity for Improvement - Timely Payment

The timeliness of payments to vendors and contractors could be improved.

The RRB’s vendors and contractors expect the government to meet its obligations for
timely and accurate payment for goods and services received. Procurement and
program officials have responsibility for timely inspection and acceptance of goods and
services. BFO works with procurement and program officials to review and process
payment vouchers and/or invoices. Payments should be made within 30 days after the
latter of the receipt and acceptance of the goods and services, or the invoice date, (if
the receipt and acceptance was not within seven days of the invoice) in accordance with
normally accepted business practices and the agency’s policies and procedures. 21

During our audit, we identified one payment in our non-statistical sample of five high-
value payment transactions, valued at $1,025,180 that was not processed on a timely
basis. This late payment resulted in the agency paying twelve days of interest totaling
$1,964.93. The delay happened because the invoice was not immediately sent to BFO,
but was sent to, and held in, other bureaus before being sent to BFO for payment.

In the statistical sample, we identified two payments which were also not processed
timely. However, because these two payments were within the acceptance error of the
statistical sample and minimal interest was paid, we only bring this to the agency’s
attention as an opportunity to make further improvements in timely payment. Again, the
cause of the delay in these two payments was that the invoices were not sent to BFO
timely.

Lack of timely payment can result in the agency’s liability for the payment of interest.
Unnecessary interest paid takes away from agency financial resources and does not
support the RRB’s strategic plan of effectiveness, efficiency and the security of
operations. It also deters from the agency’s overall goal of serving as responsible
stewards of the trust funds and financial resources under agency control.

Recommendation

We recommend that BFO:

     17. periodically re-communicate the importance of:

        •   sending invoices directly to BFO;
        •   timely inspection and acceptance of goods and services;
        •   timely return of certified invoices back to BFO for payment processing; and
        •   avoiding unnecessary interest charges which directly impact the bureaus’
            budgets.
21
  “Procurement of Goods and Services,” RRB Administrative Circular OA-14, January 24, 2008, pages
12 and 13.


                                                19
Management’s Response

BFO plans to periodically re-communicate the importance of this process.


Opportunity for Improvement - Prompt Payment Quality Assurance Reviews

Quality assurance reviews for monitoring compliance with the Prompt Payment Act
were not completed timely.

The Prompt Payment Act requires establishment of: 1) procedures monitoring the
causes of late payments and any interest penalties incurred, taking necessary
corrective action and handling inquiries; 2) effective internal control systems; and 3)
periodic quality control validation to be conducted no less frequently than once annually
for payment to vendors. The intent of the quality control process is to establish that
controls are effective and that processes are efficient. A quality control program is to be
established in order to quantify payment performance, qualify corrective actions, aid
cash management decision making and estimate payment performance. 22

To ensure compliance with the OMB's Prompt Payment requirements, BFO established
quarterly quality assurance reviews to confirm the validity of payments entered into FFS
by BFO's accounts payable staff. One of these reviews validates a statistical sample of
current payment vouchers for compliance with the Prompt Payment Act.

During our audit, we observed that as of August 2008, BFO had completed only one of
their quality assurance reviews of payments subject to the Prompt Payment Act. 23 BFO
management explained that they had only completed one prompt payment quality
assurance review because the agency had a shortage of experienced financial
management staff to conduct these reviews and the existing financial management staff
had been concentrating on tasks with a higher priority.

During our audit, our review of a statistical sample of 105 medical and non-medical
payments and a non-statistical sample of five high-value payment transactions found no
instances of non-compliance with the Prompt Payment Act. However, we found four
instances where the measurement dates were incorrect. These incorrect measurement
dates did not result in late payments or the payment of interest. We do believe,
however, that these instances of incorrect measurement dates or other related errors
could be minimized with timely monitoring, such as the quality assurance reviews
mentioned above.




22
   “Prompt Payment Final Rule,” 5 CFR Part 1315.3 (a) and (b), (31 U.S.C. Chapter 39), OMB/Federal
Register Volume 64 No. 188, September 29, 1999 page 52588.
23
   “Quality Assurance Review of Payments Subject to the Prompt Payment Act Processed During the 1st
Quarter of Fiscal Year 2008,” BFO, August 25, 2008.


                                                20
Recommendation

We recommend that BFO:

   18. consider prioritizing the quality assurance reviews of payments subject to the
       Prompt Payment Act to ensure their timely completion.

Management’s Response

BFO has responded that they have prioritized and completed the quality assurance
reviews of payments subject to the Prompt Payment Act for the second, third, and fourth
quarter of FY 08 on November 21, 2008, December 19, 2008, and February 27, 2009,
respectively.

Office of Inspector General’s Comments on Management’s Response

With respect to BFO’s proposed implementation plan, we are concerned that it will not
achieve the intent of the recommendation because the delay in the completion of these
reviews undermines their usefulness as a tool for timely program improvement.




                                           21
                                            APPENDIX I

                      Statistical Sampling Methodology and Results


This appendix presents the methodology and results of our statistical sampling tests of
non-benefit, non-payroll payments. 24

Sample Objective

The sampling objective was to determine if internal controls for processing and
recording vendor and contractor payments timely and accurately are operating and
effective.

Sampling Unit

The sampling unit is defined as one accounts payable payment, which can include
either a payment voucher (PV) or a direct disbursement (DD).

Sampling Universe

The sampling universe consisted of 4,769 payments totaling $5,711,353.55 for the
period October 1, 2007 through December 31, 2007, which were downloaded
from FFS by BFO and provided to the OIG. Employee payments for travel were
specifically excluded.

Sample Size

We randomly selected 105 accounts payable transactions. These 105 transactions
consisted of 77 payments made to vendors who provided medical examinations and
consultative opinions in support of the Office of Program’s Disability, Sickness and
Unemployment Benefits Division’s (DSUBD’s) medical claims. These payments were
processed by the DSUBD. The other 28 transactions were non-medical payments
processed by BFO.

Sample Selection Method

We used one-step attribute acceptance sampling and tested each of the 105 randomly
selected accounts payable payment transactions for compliance and operation of
internal controls. Attribute sampling provides for compliance testing of policies,
procedures and practices to determine adequacy of internal controls or operational
efficiency. Acceptance sampling provides for the pass/fail testing of the universe based
on the number of errors expected.



24
   We used non-statistical sampling to supplement our statistical sampling of high-value accounts payable
(transactions greater than $100,000). The payments in this additional sample ranged between $160,000
and $1,025,180. See Appendix II.


                                                   22
                                            APPENDIX I

                      Statistical Sampling Methodology and Results


The Acceptance Number of Errors

The acceptance number of errors for this sample was two.

Confidence Level

The confidence level of ninety percent represents the reliability of our estimate and the
degree of assurance that we have in our estimate.

Critical Error Rate

The critical error rate is five percent and represents the maximum error rate in the
universe that is considered acceptable by the auditor.

Sample Results

We tested the 105 randomly selected payments for the following attributes related to
both administration and processing controls and compliance with the Prompt Payment
Act.

The details of the sample evaluation for administration and processing controls follow.




                                                                                                       Exceptions
                                                                                          Exceptions
                                                                                 Tested



                                                                                            Non-
Administration and Processing Controls



Supporting Documentation

   Medical payments were considered to have complete supporting
   documentation if the files contained ALL of the following items required by
   the Office of Program’s policies and procedures:
   • FAME medical exam order screen print or medical opinion request                                                1
   • FAME payment screen that references the order, the exam ordered                                                2
       (applicable for medical exams), receipt, acceptance and payment
       approvals (electronically signed and dated)
   • Accepted exam/opinion signed and dated by a medical professional                                               1
                                                     Medical Payments Total          77         73                  4
   Non-medical payments were considered to have complete supporting
   documentation if the files contained an approved invoice, which was both
   signed and dated as required by the agency’s policies and procedures:
   • Signed                                                                                                 4
   • Dated                                                                                                  4
                                               Non-Medical Payments Total         28            20          8
                                                                 Grand Total     105            93         12




                                                  23
                                             APPENDIX I

                       Statistical Sampling Methodology and Results




                                                                                                        Exceptions
                                                                                           Exceptions
                                                                                  Tested



                                                                                             Non-
Administration and Processing Controls



Paid the Correct Amount

   Medical payments were considered accurate if the amount paid agreed to
   contracted amount as required by the agency’s policies and procedures.
                                                  Medical Payments Total              77         77                  0
   Non-medical payments were considered accurate if the amount paid
   agreed to the approved invoice amount as required by the agency’s
   policies and procedures.
                                            Non-Medical Payments Total             28          28                    0
                                                               Grand Total        105         105                    0
Proper Payment Approval

   Medical payments were considered properly approved if supporting
   documentation included a dated FAME screen with the user identified as
   required by the Office of Program’s policies and procedures.
                                                    Medical Payments Total            77         77                  0
   Non-medical payments were considered properly approved if the
   supporting documentation maintained in BFO included a signed invoice
   according to their normal business practices.
                                               Non-Medical Payments Total          28          28                    0
                                                                Grand Total       105         105                    0
Proper Authorization

   Both Medical and Non-Medical payments were considered properly
   authorized if they were approved by an appropriate individual acting
   within the scope of their authority as required by the agency’s policies
   and procedures.
                                                                  Grand Total     105         105                    0
Goods and Services Were Appropriate to the Agency’s Mission

   Both Medical and Non-Medical payments were considered acceptable if
   the goods and services obtained were appropriate to the agency’s
   mission in accordance with the purpose statute of appropriations law. 25
                                                                Grand Total       105         105                    0
The Receipt of Goods and Services Was Acknowledged

     Both Medical and Non-Medical payments were considered acceptable if
     the receipt and acceptance of goods and services were appropriately
     acknowledged as required by the agency’s policies and procedures.
                                                                Grand Total       105         105                    0



25
  31 U.S.C. §1301(a), the purpose statute of appropriations law requires that obligations/expenditures be
authorized and that “Appropriations shall be applied only to the objects for which the appropriations were
made except as otherwise provided by law.”


                                                   24
                                             APPENDIX I

                       Statistical Sampling Methodology and Results




                                                                                                        Exceptions
                                                                                           Exceptions
                                                                                  Tested



                                                                                             Non-
Administration and Processing Controls



Timely Payment

   Both Medical and Non-Medical payments were considered timely if they
   were made within 30 days after the latter of the receipt and acceptance of
   the goods and services or the invoice date, (if the receipt and acceptance
   was not within seven days of the invoice) in accordance with normally
   accepted business practices and the agency’s policies and procedures.
                                                     Medical Payments Total                                          0
                                               Non-Medical Payments Total                                            2
                                                                  Grand Total      105        103                    2
Adequate Monitoring and Treasury Annotation 26

     Non-Medical payments were considered adequately monitored if the
     invoice was properly annotated with the Treasury processing data in
     accordance with the agency’s normal business practices.
                                                Non-Medical Payments Total                                           1
                                                                 Grand Total          28         27                  1

Conclusion: The transaction-based provisions for documenting the approval of medical
and non-medical payments have not been implemented as designed and are not
effective. During the audit we noted 12 instances where the supporting documentation
was not adequate to support payment. With respect to the other controls and attributes
tested, we can conclude with 90 percent confidence that internal controls were
operating at least 95 percent of the time and payment accuracy was at least 95%.

We also identified instances where procedures and practices for timely payment and
adequate monitoring and Treasury annotation were not followed. However, these
instances were infrequent and at or below the acceptance number of errors.




26
  Only 28 of the 105 transactions in our sample were subject to this requirement due to different
processes used by DSUBD and BFO.


                                                   25
                                             APPENDIX I

                       Statistical Sampling Methodology and Results


The details of the sample evaluation for compliance with the Prompt Payment Act
follow.




                                                                                                        Exceptions
                                                                                           Exceptions
                                                                                  Tested



                                                                                             Non-
                    Compliance with Prompt Payment Act



Interest Accuracy

   Both medical and non-medical payments were considered to have
   accurate interest applied if the effective interest rate was paid for the
   appropriate period.
                                                                    Grand Total   105         105                    0
Prompt Payment Tracking

    Both medical and non-medical payments were considered to be in
    compliance if all vendors subject to the Prompt Payment Act were being
    tracked in FFS.
                                                                Grand Total       105         105                    0
Trigger/Prompt Payment Date Accuracy

    Medical payments were considered to be acceptable if the trigger date
    was the date of acceptance and if the prompt payment date was 30 days
    after the trigger date.
                                                    Medical Payments Total            77         76                  1
    Non-medical payments were considered to be acceptable if the trigger
    date was the invoice date or the date of acceptance, if within seven days
    of the invoice and if the prompt payment date was 30 days after the
    trigger date.
                                                Non-Medical Payments Total         28          25                    3
                                                                   Grand Total    105         101                    4
Early Pay

    Both medical and non-medical payments were considered compliant if
    payments that were paid earlier than seven days prior to the due date
    were appropriately approved.
                                                                 Grand Total      105         105                    0

Conclusion: We conclude that the agency was generally compliant with the Prompt
Payment Act. However, the random statistical sample did disclose four errors related to
the identification and implementation of measurement dates, such as the trigger date
and the prompt payment date. These exceptions were infrequent and none of them
resulted in late payments. We brought the specifics of these exceptions to
management’s attention during the audit.




                                                    26
                                     APPENDIX II

                Non-Statistical Sampling Methodology and Results

This appendix presents the methodology and results of our non-statistical sampling
tests of high-value non-benefit, non-payroll payments.

Sample Objective

The sampling objective was to determine if internal controls for the accurate and timely
processing and recording of high-value non-benefit, non-payroll payments are operating
and effective.

Sampling Unit

The sampling unit is defined as one accounts payable payment greater than $100,000,
which can include either a payment voucher (PV) or a direct disbursement (DD).

Sampling Universe

The sampling universe consisted of 4,769 payments totaling $5,711,353.55 for the
period October 1, 2007 through December 31, 2007, which were downloaded
from FFS by BFO and provided to the OIG. Employee payments for travel were
specifically excluded.

Sample Size

We judgmentally selected all five of the high-value accounts payable payment
transactions that were in the universe for review. These five payment transactions
totaled $1,963,729.

Sample Selection Method

We used judgmental sampling to select high-value payment transactions greater than
$100,000 to determine overall compliance and operation of internal controls, including
approval controls for high-value items and segregation of duties controls.

Sample Results

We tested five high-value payment transactions selected from a population of 4,769 for
the following attributes related to both administration and processing controls and
compliance with the Prompt Payment Act.

The details of the sample evaluation for administration and processing controls follow.




                                           27
                                             APPENDIX II

                    Non-Statistical Sampling Methodology and Results




                                                                                                            Exceptions
                                                                                               Exceptions
                                                                                  Tested



                                                                                                 Non-
Administration and Processing Controls



Supporting Documentation

    High-value payment transactions were considered to have complete
    supporting documentation if the files contained an approved invoice,
    which was both signed and dated, as required by the agency’s policies
    and procedures. In the absence of an invoice, we looked for additional
    documentation which would support the amount paid in accordance with
    normally accepted business practices.
    • Signed/Dated                                                                                                       1
    • Lacked both an invoice or any other documentation to support the                                                   1
        amount paid
                                   High-value Payment Transactions Total                   5           3                 2
Paid the Correct Amount

   High-value payment transactions were considered accurate if the amount
   paid agreed to the approved invoice amount as required by the agency’s
   policies and procedures.
                                  High-value Payment Transactions Total                    5           5                 0
Proper Payment Approval

   High-value payment transactions were considered properly approved if
   the supporting documentation maintained in BFO included an invoice that
   was approved for payment with both a signature and the date of approval,
   in accordance with BFO’s normal business practices.
                                 High-value Payment Transactions Total                     5           3                 2
Proper Authorization

   High-value payment transactions were considered properly authorized if
   they were approved by an appropriate individual acting within the scope
   of their authority as required by the agency’s policies and procedures.
                                     High-value Payment Transactions Total                 5           4                 1
Goods and Services Were Appropriate to the Agency’s Mission

   High-value payment transactions were considered acceptable if the
   goods and services obtained were appropriate to the agency’s mission in
   accordance with the purpose statute of appropriations law. 27
                                 High-value Payment Transactions Total                     5           5                 0
The Receipt of Goods and Services Was Acknowledged

     High-value payment transactions were considered acceptable if the
     receipt and acceptance of goods and services were appropriately
     acknowledged as required by the agency’s policies and procedures.
                                   High-value Payment Transactions Total                   5           5                 0

27
  31 U.S.C. §1301(a), the purpose statute of appropriations law requires that obligations/expenditures be
authorized and that “Appropriations shall be applied only to the objects for which the appropriations were
made except as otherwise provided by law.”


                                                   28
                                             APPENDIX II

                    Non-Statistical Sampling Methodology and Results




                                                                                                             Exceptions
                                                                                                Exceptions
                                                                                   Tested



                                                                                                  Non-
Administration and Processing Controls



Timely Payment

   High-value payment transactions were considered timely if they were
   made within 30 days after the latter of the receipt and acceptance of the
   goods and services or the invoice date (if the receipt and acceptance was
   not within seven days of the invoice) in accordance with normally
   accepted business practices and the agency’s policies and procedures.
                                   High-value Payment Transactions Total                    5           4                 1
Adequate Monitoring and Treasury Annotation 28

   High-value payment transactions were considered adequately monitored
   if the invoice was properly annotated with the Treasury processing data in
   accordance with the agency’s normal business practices.
                                   High-value Payment Transactions Total                    4           4                 0
Segregation of Duties/Access Profiles

     High-value payment transactions were considered to have adequate
     segregation of duties if key duties and responsibilities were divided or
     segregated among different people. FFS security profiles can be
     configured to facilitate and ensure the proper segregation of duties.
     • Multiple User ID’s                                                                                                 1
     • FFS configurations allowed one user to perform multiple steps in the                                               3
         purchasing process
                                     High-value Payments Transactions Total                 5           1                 4

Conclusion: Internal controls over high-value payment transactions have not been
implemented as designed. We found issues with supporting documentation, proper
payment approval, proper authorization, timely payment, segregation of duties and
access profiles. Because we found issues with these high-value payment transactions,
we believe that additional compensating controls should be considered.




28
  Only 4 of the 5 transactions in our sample were subject to this requirement due to different practices
used by BFO to process payment vouchers versus direct disbursements.


                                                   29
                                             APPENDIX II

                     Non-Statistical Sampling Methodology and Results

The details of the sample evaluation for compliance with the Prompt Payment Act
follow.




                                                                                                            Exceptions
                                                                                               Exceptions
                                                                                  Tested



                                                                                                 Non-
                    Compliance with Prompt Payment Act



Interest Accuracy

   High-value payments were considered to have accurate interest applied if
   the effective interest rate was paid for the appropriate period.
                                    High-value Payment Transactions Total                  5           5                 0
Prompt Pay Tracking

    High-value payments were considered to be in compliance if all vendors
    subject to the Prompt Payment Act were being tracked in FFS.
                                  High-value Payment Transactions Total                    5           5                 0
Trigger/Prompt Payment Date Accuracy

    High-value payments were considered to be acceptable if the trigger date
    was the invoice date or the date of acceptance, if within seven days of the
    invoice and if the prompt pay date was 30 days after the trigger date.
                                    High-value Payment Transactions Total                  5           5                 0
Early Pay

    High-value payments were considered compliant if payments that were
    paid earlier than seven days prior to the due date were appropriately
    approved.
                                    High-value Payment Transactions Total                  5           5                 0

Conclusion: With regards to the non-statistical sample of high-dollar value payments,
we identified no instances of non-compliance with the Prompt Payment Act.




                                                    30
                                                                       Appendix III
                UNITED STATES GOVERNMENT                                          FORM G-116f [I-82l
                                                                  RAILROAD RETIREMENT BOARD
                MEMORANDUM

                                                                  MAR 30 2009
TO       ..   Letty Benjamin Jay
              Assistant Inspector General for Audit


FROM	         John M. Walter    r//4.#/~
              Chief of Accounting, Treasury and Financial Systems. /' / .
              THROUGH: Kenneth P. Boehne            .-;;;t/ ...-t,,/~
                            Chief Financial Officer ~ ­


SUBJECT:	 OIG Draft Report - Audit of Internal Control Over Accounts Payable



Thank you for the opportunity to review and comment on the above draft report dated
March 16,2009. We are pleased that your review found no instances of
non-compliance with the Prompt Payment Act. Our comments on the recommendations
are as follows:

Recommendations

We recommend that BFO:

      1.	 identify all individuals who have been awarded FFS privileges that are
          incompatible with proper segregation of duties.

      2.	 work with agency management to eliminate FFS user privileges that
          violate the principles of segregation of duties.

          Regarding recommendations #1 and #2, each year, BFO performs an FFS
          security audit requesting agency management to review security profile
          information for FFS users in their organization and provide us with any
          changes, additions, or deletions. The responses and documentation of
          actions taken are then provided to the RRB's Chief Security Officer. For the
          fiscal year 2009 security process, we will ask agency management to identify
          individuals who have been awarded FFS privileges that are incompatible with
          proper segregation of duties and eliminate such FFS user privileges.
          Additional FFS privileges may have been awarded to users in a given
          organization due to the small size of that organization, and the organization
          may have compensating controls. Target date: 9/30/09.




                                         31
                                                                 Appendix III
                                  -2­


3.	 develop and maintain a list of designated certifiers, obtain signature
    cards for these individuals and require that higher dollar hard copy
    invoices be subject to multiple approvals before they are processed for
    payment.

   We plan to work with agency management to implement this
   recommendation. A revision to Administrative Circular OA-14 may be
   required. Target date: 9/30/09.

4.	 establish more reasonable dollar thresholds for payment approvals to
    mirror the thresholds used in other steps of the procurement life cycle.

   We plan to review the dollar thresholds for payment approvals and make
   adjustments as necessary. Target date: 9/30/09.

9.	 ensure that manually certified invoices and other payments include
    adequate back-up documentation to support the amount paid.

   The Treasury staff plan to discuss this recommendation with your staff and
   then work to ensure that manually certified invoices and other payments
   include adequate back-up documentation to support the amount paid. Target
   date: 12/31/09.

10.	 re-communicate to all certifiers that, to be complete, the manual
     certification must include a signature, the date of acceptance, reference
     to the applicable purchase order or service order and the amount
     approved for payment.

   We plan to re-communicate this information, which is in Administrative
   Circular OA-14, to certifiers of invoices. Target date: 8/31/09.

11.	 complete a management control review and a related risk assessment
     for the Accounts Payable Assessable Unit, using current data,
     according to the MCRC's current policy, without further delay.

   Treasury plans to complete a management control review and a related risk
   assessment for the Accounts Payable Assessable Unit. Target date:
   9/30/09.

13.	 BFO implement procedures that will permit them to process Forms
     G-753 without employee SSNs for payment.

   The Treasury section is able to process Forms G-753 without employee
   SSNs.




                                   32
                                                                          Appendix III
                                          -3­


      14.	 review, update and finalize policies and procedures for accounts
           payable activities.

          The Treasury section plans to review, update, and finalize policies and
          procedures for accounts payable activities. Target date: 3/31/10.

      16.	 work with the Executive Committee to maximize the use of electronic
           receivers for accounts payable transactions and promote the
           importance of the electronic receiver as an additional control in the
           purchasing and financial reporting process; or improve the manual
           certification process to include all of the controls that are provided by
           the electronic receiver.

          We have discussed this recommendation with the Director of Administration.
          He plans to promote the use of electronic receivers to the Executive
          Committee.

      17.	 periodically re-communicate the importance of:

          •	 sending invoices directly to BFO;

          •	 timely inspection and acceptance of goods and services;

          •	 timely return of certified invoices back to BFO for payment
             processing; and

          •	 avoiding unnecessary interest charges which directly impact the
             bureaus' budgets.

          We plan to periodically re-communicate the importance of this process which
          is in Administrative Circular OA-14. Target date: 9/30109.

      18.	 consider prioritizing the quality assurance reviews of payments subject
           to the Prompt Payment Act to ensure their timely completion.

          We have considered the quality assurance reviews for payments subject to
          the Prompt Payment Act and have prioritized them. The first quarter 2008
          Prompt Pay review was completed on 8/25/08. In addition, the second
          quarter Prompt Pay review was completed on 11/21/08, the third quarter
          Prompt Pay review was completed on 12/19/08 and the fourth quarter
          Prompt Pay review was completed on 2127109.

cc:	 Dave Miller, Finance Officer
     Kris Garmager, Financial Systems Manager
     Katrina Page, Financial Management Analyst
     Hattie Fitzgerald, Financial Compliance Officer
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst


                                           33
                                                                                 Appendix IV


                    UNITED STATES GOVERNMENT                                               FORM G-llSf(I-92)

                                                                       RAILROAD RETIREMENT BOARD
                    MEMORANDUM
                                                                        MAR 27 2009


TO	        Letty Benjamin Jay
           Assistant Inspector General for Audit


FROM           CatherineA. Leyser
               Director of
                                 ~
                          Assessm'~rainin	
                                           !l~~
                                             d
                       Through;Dorothy Isherwo
                       Director of Programs

SUBJECT: Draft Report-Audit of Internal Control Over Accounts Payable




Recommendation 5	      The Office of Programs should segregate duties to prevent the same
                       employee from ordering and accepting medical examinations and
                       consultative opinions, implement second level approvals on orders and
                       acceptances of medical examinations and consultative opinions, or
                       develop an effective compensating control to ensure the agency does not
                       pay for unnecessary services.


OP response	           The OIG finding of a single examiner having the capability of both
                       ordering and paying for medical examinations or opinions is an intended
                       practice. The Office of Programs established this practice because the
                       requestor is best qualified to detennine if the product received meets the
                       requestor's expectations. To preclude ordering unnecessary services, we
                       have a control in place to examine medical examination requests that
                       exceed 5 examinations in a case. In light of the OIG's concerns we agree
                       to develop a plan for an additional compensating control.

                       We will develop a plan by September 30,2009.


Recommendation 6	      The Office of Programs should revise policies and procedures to fully
                       articulate which job descriptions have authority for ordering medical
                       examinations and consultative opinions so that the policies and
                       procedures correspond with actual practice and FAME system utilization.

                                                                              Continued on next page




                                                34
                                                                                 Appendix IV




OP response	        The OIG review observed staff in clerical positions that were entering
                    medical opinion and medical examination requests; and, there were no
                    specifications in procedures regarding authority at those positions. The
                    Office of Programs agrees to revise procedures to include positions such
                    as field office and headquarters clerks as those given authority to enter
                    requests. Only claim examiners are authorized to process payments and
                    there is no change in that authority.

                    We will make the necessary procedure revisions by J ul Y31, 2009.


Recommendation 7	   The Office of Programs should review FAME system programming and
                    request revisions to ensure that the active user identifier is automatically
                    captured for each transaction and secured against change.


OP response	        The Office of Programs agrees to review the system to determine when
                    revisions can be made. Other priorities make it difficult to project when
                    this can be completed; and, we will make any changes that are possible
                    when the next program revisions are made to the FAME system. The
                    target date for this is pending.


Recommendation 8	   The Office of Programs should re-communicate to the appropriate staff
                    that all order authorization forms, evidence of receipt and acceptance and
                    payment approvals supporting medical examinations and consultative
                    opinions need to be maintained in the files.


OP response	        The Office of Programs agrees to this recommendation.

                    We will include a reminder to examiners during the next monthly training
                    agenda which includes pertinent procedural, informational and reminder
                    notices to disability examiners.

                    Target completion date: April 30,2009.




                                              35
                                                                           Appendix V

                                                                                 FORM G-1l5f U-92)
                UNITED STATES GOVERNMENT
                                                                RAILROAD RETIREMENT BOARD
                MEMORANDUM
                                                                      March 27, 2009



TO	         Letty Benjamin Jay
            Assistant Inspector General for Audit


FROM
                                            ior Executive Officer


SUBJECT:	 Draft      . ort-Audit of Internal Control Over Accounts Payable



In response to your draft report dated March 16, 2009, I have reviewed the findings and
recommendations, and in particular, the two recommendations concerning the Office of
Administration.

I concur with recommendation #12, "the Office of Administration implement a revised
Form 0-753 that does not require the employees' social security numbers (SSNs)". The
RRB should reduce exposure of employee SSNs and revising this form, which is used to
reimburse employee medical expenses, will do so. The recommendation should be
implemented by June 30, 2009.

The second recommendation #15, "review and update the identified policies and
procedures related to the procurement process" will also be implemented. We will update
Administrative Circular OA-14 to contain information on expedited payments or
procedures for early payment. We will also work with legal counsel to update Basic
Board Order 5 to include references to appropriate laws or regulations in the coverage of
severable contracts. This recommendation will be implemented by June 30, 2009.

Thank you for the opportunity to comment on the draft report.


cc:	 General Counsel
     Chief Financial Officer
     Supervisory Contract Specialist
     Asst. to Director of Administration
     Executive Asst. to Director of Administration




                                          36
